No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

 

GERALD ALLEN HILER, aka Teg,

PETITIONER,
vs.

UNITED STATES OF AMERICA,
RESPONDENT.

Proof of Service

Stephen R. Hormel, declares as follows:

That I am admitted to practice before this Court. On August 5, 2021, the Petition for Writ
of Certiorari in the above-entitled matter was sent by United States mail to the Clerk of the
Supreme Court of United States for filing said Petition; an additional copy of the petition was
served on counsel for Respondent by placing the same in the United States mail to:

The Honorable Elizabeth Prelogar

Acting Solicitor General of the United States
Department of Justice

950 Pennsylvania Ave., N.W., Room 5143
Washington D.C. 20530

I declare under the penalty of the United States of America, the foregoing is true and

correct.

   
   

Executed on August 5, 2021, at Spokane Valley, Washington.

Stephen R. Hormel, Attorney for Petitioner

1
